               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Lessons Learned from Retail Network
         Optimization Initiatives

         Management Advisory Report




                                              March 21, 2013

Report Number DR-MA-13-001
                                                                          March 21, 2013

                                                Lessons Learned from Retail Network
                                                             Optimization Initiatives

                                                          Report Number DR-MA-13-001



BACKGROUND:
Beginning in 2009, the U.S. Postal             community uncertainty. We identified
Service launched two nationwide                about 600 stations, branches, and retail
initiatives to realign its retail network of   annexes from the 2011 initiative that
about 32,000 facilities. The purpose of        remain under review for closure, almost
both initiatives was to examine closure        2 years later.
opportunities and reduce costs. On
May 9, 2012, management reversed               We also identified instances where
course and announced a new initiative          management did not provide consistent,
to keep about 13,000 small post offices        accurate, and timely information to
open by reducing operating hours to            stakeholders. Such information is
achieve cost savings.                          essential for improving communications
                                               with stakeholders during retail network
From fiscal years 2007 through 2012,           realignments.
the Postal Service reduced its retail
network by 891 facilities, closing 760 of      Further, we found that management did
the facilities on an individual, as-needed     not establish a post-implementation
basis. The remaining 131 retail facility       review process. Absent such a review
closures resulted from a 2009 closure          process, management’s ability to
initiative. The Postal Service did not         understand the complete impact of retail
close any facilities that were part of a       network realignments and ensure
separate 2011 initiative.                      accountability diminishes.

Our objective was to identify Postal           WHAT THE OIG RECOMMENDED:
Service lessons learned from current           We recommended management
and past retail network optimization           process and approve or disapprove
initiatives.                                   closure proposals from the 2011
                                               initiative, enhance communication plans
WHAT THE OIG FOUND:                            to improve relations with stakeholders,
Although the Postal Service has                and implement a formal
improved its retail network optimization       post-implementation review procedure
efforts, we identified lessons learned         that evaluates savings achieved and
from current and past initiatives.             impacts from network realignments of
Specifically, timely decisions are needed      retail operations.
regarding closure proposals to avoid
unnecessary operational disruption and         Link to review the entire report
March 21, 2013

MEMORANDUM FOR:             EDWARD F. PHELAN, JR
                            VICE PRESIDENT, DELIVERY AND POST OFFICE
                            OPERATIONS


                                   E-Signed by Michael A. Magalski
                                VERIFY authenticity with eSign Desktop


FROM:                       Michael A. Magalski
                            Deputy Assistant Inspector General
                             for Support Operations

SUBJECT:                    Management Advisory Report – Lessons Learned From
                            Retail Optimization Initiatives
                            (Report Number DR-MA-13-001)

This report presents the results of our review of Lessons Learned From Retail
Optimization Initiatives (Project Number 13XG004DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachments

cc: Jeffrey C. Day
    Corporate Audit and Response Management
Lessons Learned from Retail Network                                                                               DR-MA-13-001
 Optimization Initiatives



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Retail Network Optimization Initiatives ............................................................................ 1

   Planning for Retail Network Optimization Initiatives..................................................... 2

   Communication Associated with Retail Network Optimization Initiatives ..................... 4

   Execution of Retail Network Optimization Initiatives .................................................... 6

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 12

Appendix B: Analysis of the Retail Access Optimization InitiativeRetail Facilities
 Composition ............................................................................................................... 15

Appendix C: Galesville Post Office Community Meeting ............................................... 16

Appendix D: Galesville Post Office Survey Results ....................................................... 17

Appendix E: Management's Comments ........................................................................ 18
Lessons Learned from Retail Network                                             DR-MA-13-001
 Optimization Initiatives




Introduction

This report presents the results of our review of the U.S. Postal Service’s Lessons
Learned from Retail Network Optimization Initiatives (Project Number 13XG004DR000).
Our objective was to identify lessons learned from current and past retail network
optimization initiatives. The review focused on the planning, communication, and
execution of these network initiatives. This self-initiated review addresses strategic risk.
See Appendix A for additional information about this review.

The Postal Service launched two nationwide initiatives to realign its retail networks.
These realignments were called the Stations and Branches Optimization Consolidation
(SBOC), April 2009; and Retail Access Optimization Initiative (RAOI), July 2011. The
purpose of both initiatives was to examine closure opportunities and reduce costs. On
May 9, 2012, management announced a new strategy known as the Post Office
Structure Plan (POStPlan). This plan would keep small post offices (PO) open for
business by reducing operating hours, while providing a framework to achieve cost
savings. Management plans to complete the POStPlan in 2014.

Conclusion

Although the Postal Service has improved its retail network optimization efforts, we
identified lessons learned from current and past initiatives. Specifically, of the 3,652
facilities under the RAOI, about 600 stations, branches, and retail annexes did not
transfer to the POStPlan initiative and remained under review for closure. However, as
of January 2013, management has made no decisions regarding which, if any, of the
600 facilities will close. Without timely decisions to process and approve or disapprove
discontinuance proposals, there is an increased risk of unnecessary disruption to
certain field operations and community uncertainty.

We also identified instances where management did not provide consistent, accurate,
and timely information to stakeholders. Such information is essential for improving
communications with stakeholders during retail network realignments. Further, we found
that management did not establish a post-implementation review (PIR) process. Absent
such a review process, management’s ability to understand the complete impact and
ensure accountability diminishes.

Retail Network Optimization Initiatives

From fiscal years (FY) 2007 through 2012, the Postal Service reduced its
Postal Service-managed retail network by 891 facilities, but it did not conduct PIRs to
evaluate potential cost savings, revenue loss, and service impacts for offices closed due
to network realignments. District offices closed 760 of the 891 facilities on an individual,
as-needed basis. According to Postal Service Headquarters management, the
                                             1
Lessons Learned from Retail Network                                                                      DR-MA-13-001
 Optimization Initiatives


remaining 131 retail facility closures resulted from the SBOC initiative. In July 2011, the
Postal Service announced the RAOI, but did not close any facilities as a result of this
initiative. In May 2012, the Postal Service announced a new nationwide retail initiative,
POStPlan, to preserve about 13,000 small POs and achieve cost savings. In prior work,
the U.S. Postal Service Office of Inspector General (OIG) issued 10 recommendations
related to retail optimization initiatives. 1 Management agreed with our recommendations
and has initiated actions to address them.

Planning for Retail Network Optimization Initiatives

While the Postal Service has enhanced the planning process for retail network
restructuring initiatives, opportunities exist for improvement. Beginning in 2009, the
Postal Service announced two nationwide initiatives to restructure its retail network of
about 32,000 Postal Service-operated facilities. Management deployed a web-based
tracking application 2 to manage consolidations and closures in 2010. In 2011, the
Postal Service issued new regulations 3 to increase its flexibility to make changes to the
retail network and incorporated them into its discontinuance policies. 4 Significant
changes included, but were not limited to, instituting a strategic (top-down) 5 approach,
implementing uniform closure procedures, and changing regulations to allow POs to be
staffed by other types of Postal Service employees. 6

We reported in 2010 7 that the Postal Service could have enhanced SBOC planning and
management by improving communication and coordination with stakeholders 8 and
developing accurate and reliable data on its facilities. Following the SBOC initiative,
management recognized the need to increase its flexibility to pursue retail network
optimization and took necessary action. As noted in our 2011 report, 9 the Postal Service
implemented new regulations and policies and deployed a web-based data program to
guide closure studies to address some of the institutional barriers that inhibited
modernizing the retail network. Also, management incorporated five prior OIG
recommendations10 on the closure process into the regulations and policy changes.

1
  University Station, Eugene, OR Consolidation (Report Number EN-AR-11-007, dated July 20, 2011) and Stations
and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated August 17, 2010);
Postal Service-Operated Retail Facilities Discontinuance Program (Report Number EN-AR-12-002, dated
December 1, 2011).
2
  Change, Suspension, Discontinuance Center (CSDC) Program.
3
  39 C.F.R. Part 241, Post Office Organization and Administration: Establishment, Classification, and Discontinuance,
December 2011.
4
  Handbook PO-101, Postal Service-Operated Retail Facilities Discontinuance Guide, January 2012.
5
  Current postal regulations and policies expand the authority to initiate discontinuance studies to the responsible vice
president to integrate the benefits of headquarters optimization framework (top-down) with local expert validations
(bottom-up) to ensure discontinuance opportunities are feasible.
6
  Under previous Postal Service regulations and policies, a postmaster was the only employee who could manage
operations at a PO.
7
  Stations and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated August 17,
2010).
8
  Postal Service employees, congress, local communities, and unions.
9
  Postal Service-Operated Retail Facilities Discontinuance Program (Report Number EN-AR-12-002, dated
December 1, 2011).
10
   University Station, Eugene, OR Consolidation (Report Number EN-AR-11-007, dated July 20, 2011) and Stations
and Branches Optimization and Consolidation Initiative (Report Number EN-AR-10-005, dated August 17, 2010).

                                                           2
Lessons Learned from Retail Network                                                                     DR-MA-13-001
 Optimization Initiatives


These changes enabled the Postal Service to roll out the RAOI, made up of 3,652
Postal Service-operated retail facilities, and the agency asked the Postal Regulatory
Commission (PRC) for an advisory opinion on the national service implications in
July 2011. Management stated that they designed the RAOI to look at retail facilities in
urban, suburban, and rural areas proportionally across the retail network (see
Appendix B for the RAOI facilities composition). However, the RAOI received significant
resistance since stakeholders viewed the RAOI as targeting rural area POs for closure.

Like the SBOC initiative, we determined that management did not establish goals or
milestones for the RAOI. Management stated that setting specific goals and milestones
would impede the progress and the process for the RAOI. In addition, we found that
some RAOI facilities did not meet the headquarters-defined criteria of access points or
annual revenue due to incomplete or inaccurate data. In December 2011, the Postal
Service placed a moratorium on all facility closures until May 15, 2012, while congress
considered postal reform legislation. The PRC issued its advisory opinion on
December 23, 2011, and concluded that the RAOI was likely to affect service on a
nationwide basis and that it was not designed to optimize the retail network.

Although the PRC’s advisory opinion did not prevent management from implementing
the RAOI once the moratorium expired in May 2012, management initiated an
alternative to the RAOI, the POStPlan. The POStPlan is aimed at modifying retail hours
to match customer usage without closing about 13,000 small POs. However, of the
3,652 RAOI facilities, about 600 stations, branches, and retail annexes did not transfer
to the POStPlan and remained under review for closure opportunities.

As of January 2013, management has made no decisions regarding which, if any, of the
600 facilities will close. After the SBOC, the Postal Service implemented new policies
and deployed a web-based tracking application to reduce cycle time to about 120 days
to complete the closure process. However, like the SBOC, we found that management
did not make timely decisions to process and approve or disapprove the 600
discontinuance proposals from the 2011 initiative. Management stated that the
POStPlan has taken priority and that community meetings for some of the 600 facilities
were held about 1 year ago; therefore, they may have to start the discontinuance study
from the beginning. Without timely decisions, there is an increased risk of unnecessary
operational disruption and community uncertainty. In addition, stakeholders may
perceive the Postal Service as being indecisive.

Under the POStPlan, the Postal Service will work with communities regarding the future
status of their POs and to implement one of these four options:

    Keep the PO open with reduced hours.
    Close the PO and offer curbside delivery.
    Close the PO and establish a Village Post Office (VPO). 11
    Close the PO and provide PO Box Service at a nearby PO.
11                                                                                                                ®
  Contractor-operated facilities that provide limited postal products and services, including stamps, Priority Mail Flat
Rate packages and envelopes, and mail box services.

                                                           3
Lessons Learned from Retail Network                                                               DR-MA-13-001
 Optimization Initiatives




Communication Associated with Retail Network Optimization Initiatives

The Postal Service has made progress coordinating and informing stakeholders of its
retail restructuring initiatives. The Postal Service recognizes that stakeholders are a
critical component of implementing successful changes in the retail network.
In our SBOC report, we identified several weaknesses with the communication process
used to guide the initiative. Management acknowledged that there were communication
issues with stakeholders because the SBOC initiative was launched without sufficient
complement options to existing Postal Service-managed retail facilities. As a result, the
SBOC initiative was stagnant until management closed the initiative in its entirety after
closing 131 stations and branches.

Lastly, there were inconsistencies on how well the Postal Service shared information
with congressional staff members and other stakeholders. While some congressional
staff members stated that the Postal Service adequately shared information, others
raised concerns that they were provided conflicting, inaccurate, incomplete, and
untimely information. Some constituents believed the Postal Service did not provide
information in community meetings sufficient enough to enable customers to find the
process fair and transparent. Enhancing communication is essential for improving
relations with stakeholders and raising stakeholders’ confidence that the Postal Service
will make transparent, equitable, and fact-based decisions.

After the SBOC initiative, the Postal Service updated its communication instructions by
expanding guidance to ensure that notices and questionnaires reached affected
customers, community meetings were held, and proposal and comment notices were
posted and available upon customer request for the roll out of the RAOI. However,
stakeholders continued to raise concerns about potential changes to the Postal
Service’s retail network and how the proposed changes might affect jobs, service, and
communities.

To obtain information on resistance to closing facilities under the RAOI, we reviewed
comments obtained from community meetings, PRC documents, OIG external blogs,
and news articles and found that stakeholders' concerns included:

    The closure process did not consider stakeholders’ input.

    The Postal Service did not properly notify customers of community meetings, and
     meetings were held at times inconvenient to the public.

    The proposed alternative service was inadequate, inconvenient, or unsafe.

    Closing the facility would cause a hardship on the community. 12

12
  These hardships were centered around inconveniences to the elderly and the poor and increased driving distance
and fuel cost.

                                                        4
Lessons Learned from Retail Network                                                               DR-MA-13-001
 Optimization Initiatives


In addition, we attended three RAOI community meetings 13 and noted that stakeholders
expressed concerns about timely meeting notifications and questionnaires, access to
products and services, change of address requirements, and the lack of community
input into the Postal Service’s decision to close its facility. We also noted that
management’s presentations shared primarily high-level information that had been
widely reported in the news media about the Postal Service’s current financial condition.
Management offered little explanation regarding facility-specific details that led to the
proposed closure and changes in service. In addition, stakeholders questioned the
Postal Service’s consideration of information received at community meetings and from
questionnaires when considering the impact of closing the facility on the community.

We also reviewed 53 OIG Hotline complaints about closing retail facilities and found that
45 (85 percent) believed that closing the facilities would cause a hardship on
communities, including elderly, poor, and rural communities.

Management heard and responded to stakeholders’ concerns. According to a May 2012
news release, 14 the Postal Service stated that it used the feedback generated by RAOI
community meetings and surveys and from stakeholders at every level to outline the
POStPlan strategy for preserving POs in communities. Management informed the OIG
that they have learned from past initiatives that they have to be open and share their
plans with everyone in advance. For example, in the initial POStPlan announcements,
the Postal Service released names and locations of alternate POs to customers in the
event that their PO was closed or its hours reduced. In September 2012, the Postal
Service began the 2-year nationwide process of notifying affected communities of the
proposed operational hour changes under POStPlan and other options available to
them. Management added that the POStPlan was well received by members of
congress, communities, management associations, and bargaining employee groups.

Our review of the POStPlan community meeting lists posted on usps.com showed that
the Postal Service scheduled more than 4,900 community meetings for the 9-week
period between October 8 and December 7, 2012. 15 We attended three POStPlan
community meetings 16 in October and one in November 2012, and noted that
attendance ranged from six to about 50 customers. We observed management
distributing a one-page fact sheet containing survey results, proposed hours of
operation, and nearby alternate access options (see Appendix C for photos of the
Galesville PO community meeting and survey results). Management informed the OIG
that scheduling and holding POStPlan meetings at impacted facilities, rather than at
third-party locations, enabled them to communicate with customers more efficiently.
While the Postal Service has made improvements in the timeliness and information it


13
   Leesburg Station, Virginia, November 9, 2011; Twentieth Street Station, Washington, D.C., November 21, 2011;
and East Arlington Station, Texas, December 15, 2011.
14
   Postal News: New Strategy to Preserve the Nation’s Smallest Post Office, May 9, 2012.
15
   No POSTPlan community meetings were scheduled between November 17- 23, 2012, or between December 8,
2012 - January 8, 2013. Meetings were scheduled to resume after January 8, 2013.
16
   Galesville PO, Maryland, October 25, 2012; Toms Brook PO, Virginia, October 25, 2012; West River PO, Maryland,
October 25, 2012; and Westminister PO, Texas, November 8, 2012.

                                                       5
Lessons Learned from Retail Network                                                                    DR-MA-13-001
 Optimization Initiatives


shares with stakeholders under the POStPlan, continuous monitoring on its progress
and communicating with stakeholders are critical for the success of the POStPlan.

Execution of Retail Network Optimization Initiatives

Over the past 6 years, the size of the Postal Service’s retail network has remained
largely unchanged. From FYs 2007 through 2012, 17 the Postal Service reduced its retail
network by 891 facilities. In April 2009, the Postal Service announced its first nationwide
initiative, the SBOC, to consolidate retail facilities by reviewing about 3,600 stations and
branches. In July 2009, the Postal Service asked the PRC for an advisory opinion on
the national service implication. However, in December 2009, it became clear to the
Postal Service that the SBOC initiative would not change services that could be
characterized as ‘nationwide’ or ‘substantially nationwide’ and requested the PRC to
terminate the advisory opinion docket.

The Postal Service also recognized that the functional differences between POs,
stations, and branches might not be readily apparent to its customers and that using a
bottom-up approach 18 may have resulted in inconsistencies when determining feasibility
to discontinue operations. Management stated that they closed 131 stations and
branches as a result of the SBOC initiative and that they have closed out the initiative in
its entirety. Subsequently, they set out to review regulations in 39 C.F.R. Part 241 to
determine how they can improve administering the closure process.

In July 2011, the Postal Service issued new regulations and policies to increase its
flexibility to make necessary changes to the retail network. Significant revisions included
instituting a strategic (top-down) approach by integrating the benefits of the
headquarters optimization framework with local expert validations (bottom-down) and
expanding guidance to enhance transparency and public notice.

With these changes in place, the Postal Service announced the RAOI in July 2011 to
review 3,652 facilities for closure opportunities and introduced VPOs as a new
alternative retail option. Management stated that VPOs did not gain acceptance under
the RAOI because stakeholders viewed them as replacements for POs.

Management stated that they learned that customers want to keep their POs open;
therefore, under the POStPlan, VPOs are offered as a compliment option to existing
POs. According to a Postal Service news release, as of December 2012, 100 VPOs
were in operation. However, VPOs may not be a viable alternative for customers in
some areas because there may not be businesses in the community to host a VPO. For
example, in our September 2012 case study report 19 on two POs under the POStPlan

17
   The Postal Service Annual Report and Form 10-K Report show 32,163 POs, stations, and branches in FY 2007
and 31,272 in FY 2012.
18
   The decision-making process begins with the development of information by district offices because they have the
knowledge of local conditions and customers. The district is responsible for preparing and submitting all requests to
discontinue stations and branches to headquarters. Headquarters approves or disapproves the proposed
discontinuance.
19
   Postal Service Retail Facilities Optimization Options (Report Number CI-MA-12-002, dated September 17, 2012).

                                                          6
Lessons Learned from Retail Network                                                                 DR-MA-13-001
 Optimization Initiatives


review, we found that one town did not have any local businesses and another had four
local businesses — a restaurant, a gas station, a grain cooperative facility, and a
hunting preserve. However, some of these businesses may not be able to host a VPO
because they may not be set up to receive retail foot traffic.

In the SBOC initiative, the OIG raised concerns related to the adequacy of the
Postal Service’s analysis and data. The Postal Service reported that it had greatly
improved its financial analysis as part of the top-down process for the RAOI. 20 Despite
the change, the OIG was unable to estimate the cost of retail operations in the RAOI or
the projected $200 million annual cost savings that might be realized if all RAOI facilities
were closed. 21 Management informed the OIG that they did not collect facility-specific
revenue and cost data. We are not making a recommendation at this time because we
will address this issue in a future review on the POStPlan initiative and related facilities
data.

We also found that the Postal Service did not have a formal process to review retail
facility realignment results. Management stated that they reviewed results before and
after discontinuing operations, but did not use them. To illustrate, management
assumed that customers would continue to access postal products and services through
alternative access channels or another postal facility. However, in a July 2011 OIG
report, 22 we found that the University of Oregon (Eugene) community’s willingness to
use another Postal Service facility was diminished due to new travel distances and
inconvenient retail hours. In addition, some PO box customers did not transfer their box
service to another Postal Service facility.

We believe the Postal Service needs a formal PIR process to measure results,
document lessons learned, and identify process improvement. These reviews are
essential to helping the Postal Service:

    Determine whether retail network realignments have achieved the projected savings
     and minimized potential revenue loss.

    Evaluate whether the established procedures are effective and understood by
     employees.

    Learn whether community needs are met.

    Establish management accountability for decision-making.

Additionally, we found that management did not have a fully developed plan to address
workforce planning requirements and measure potential labor cost savings associated
with the RAOI. This occurred because management stated that they would follow

20
   Docket Number N2011-1, Official Transcript of Proceedings before PRC, Retail Access Optimization Initiative
2011, Volume 1, page 608.
21
   Docket Number N2011-1, Volume 1, page 421.
22
   University Station, Eugene, OR Consolidation (Report Number EN-AR-11-007, dated July 20, 2011).

                                                         7
Lessons Learned from Retail Network                                                                      DR-MA-13-001
 Optimization Initiatives


long-standing labor practices and procedures for involuntary movement of impacted
bargaining unit employees, although retirement incentives may be warranted.

The Postal Service estimates an annual cost savings of about $500 million — primarily
from reduced labor rates and workhours — after full implementation of the POStPlan in
the fall of 2014. As part of the POStPlan strategy to reduce workhours, management
offered Voluntary Early Retirement (VER) incentives for 21,000 postmasters. At the end
of the incentive period in June 2012, 4,189 postmasters accepted the retirement
incentive (or about 20 percent of all career postmasters). Also, in October 2012, the
Postal Service announced a VER incentive offer to eligible bargaining unit employees
represented by the American Postal Worker Union (APWU). Eligible career employees
must agree to leave on or before February 28, 2013. As of January 2013, more than
26,000 APWU employees accepted the retirement incentive. However, it is unclear how
many of the 26,000 are retail employees. Under current Postal Service regulations,
management may staff POs with a postmaster or another type of Postal Service
employee.

The scale of the actions the Postal Service plans to take with the POStPlan is greater
than any past retail optimization initiative. It plans to review almost one-half of its retail
facilities for modification in hours, possible closure, and alternative access; reduce
workhours primarily through attrition; and hold about 13,000 community meetings. The
Postal Service will implement the POStPlan using an incremental approach over a
2-year period.

As reported in our reviews of the SBOC and RAOI, bold actions require an integrated
retail network strategy that includes short- and long-term plans, milestones, and goals.
Management informed the OIG that they were in the process of developing a retail
optimization plan and has implemented Deliver Results, Innovation, Value, and
Efficiency (DRIVE) 23 Initiative 3, Access Optimization. The Postal Service developed
DRIVE Initiative 3 to provide customers with efficient, convenient, and easy access to
products and services in ways that meet their evolving needs. We will assess the
POStPlan initiative in a future review.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Process and approve or disapprove the remaining 600 Retail Access Optimization
   Initiative discontinuance proposals.

2. Enhance communication plans with stakeholders by providing consistent, accurate,
   and timely information that supports retail optimization initiatives.

23
  DRIVE is a portfolio of 36 active strategic key initiatives that have been reviewed and selected by the Postal
Service’s Executive Leadership Team (ELT) to achieve both short- and long-term goals. The ELT establishes
objectives, timelines, and metrics for each initiative, conducts scheduled ELT reviews, and facilitates cross-functional
collaboration and communication.

                                                           8
Lessons Learned from Retail Network                                             DR-MA-13-001
 Optimization Initiatives




3. Develop and implement a formal post-implementation review that evaluates savings
   achieved and potential revenue loss associated with retail network realignments.

Management’s Comments

Management agreed with the recommendations, however, they expressed reservation
that the OIG included subjective and opinionated stakeholder statements in the report.
Management specifically requested that we remove the statement regarding the use of
convoluted reports in the process to review retail facility realignment results, as well as
statements received from stakeholders and blogs.

For recommendation 1, management stated they will continue to review the remaining
600 RAOI discontinuance proposals and plan to complete the process in the fall of
2014. For recommendation 2, management stated that they have enhanced their
communication plan based on prior OIG audits. Management added that they have an
effective communication plan at this time and will use it going forward. For
recommendation 3, management stated that they have a review process and a model to
determine savings achieved for POStPlan offices. Management added that they will
apply the model for the remaining 600 RAOI offices. Lastly, management added that
they will collaborate with the Postal Service Finance office to determine the feasibility of
reviewing revenue loss. See Appendix E for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

Regarding management’s request to remove subjective and opinionated statements in
the report, we removed the reference that management considered discontinuance
results convoluted. However, we will retain the stakeholders and blog comments
because they provide useful information and insights.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed




                                             9
Lessons Learned from Retail Network                                                                    DR-MA-13-001
 Optimization Initiatives


                                   Appendix A: Additional Information

Background

In April 2009, the Postal Service began a national initiative to consolidate stations and
branches that report to postmasters at or above the Postal Service executive and
administrative schedule 24 level. 24 The SBOC initiative focused on facilities in urban
and suburban areas because they were in relative proximity to one another where
consolidation might be feasible. The Postal Service identified more than 3,600 stations
and branches to review for closure but only approved 131 facilities for closure.

In July 2011, the Postal Service began the first headquarters-initiated review for the
RAOI, which identified 3,652 nationwide retail facilities for closure opportunities. The
Postal Service designed the initiative to include a cross-section of POs, stations, and
branches to be evaluated in a centralized and coordinated manner. As such,
management established three headquarters-defined criteria for the selection of
Postal Service operated facilities for RAOI as follows:

      Group 1: POs earning less than $27,500 in annual revenue with less than 2 hours of
       workload daily.

      Group 2: Stations and branches earning less than $600,000 in annual revenue and
       having five or more access points within 2 miles.

      Group 3: Retail annexes earning less than $1 million in annual revenue and having
       five or more access points within half a mile.

In addition, the Postal Service identified a fourth group of POs, stations, and branches
for inclusion in RAOI. The fourth group included district-initiated discontinuance studies
started under the old Handbook PO-101 policy.

On May 9, 2012, management announced a new strategy known as the POStPlan. This
plan would keep the smallest POs open for business by reducing operating hours, while
providing the framework to achieve cost savings. Management plans to complete
implementing the POStPlan in the fall of 2014.

Objective, Scope, and Methodology

Our objective was to identify lessons learned from current and past retail network
optimization initiatives.




24
     A salary structure that applies to most managerial and administrative Postal Service employees.

                                                           10
Lessons Learned from Retail Network                                           DR-MA-13-001
 Optimization Initiatives


To accomplish this objective, we:

   Reviewed prior OIG reports for planning, communication, and execution of retail
    initiatives.

   Identified lessons learned in the planning, communication, and execution within
    these initiatives.

   Identified concerns and risks associated with the objective.

   Conducted interviews with congressional staff members to understand concerns
    related to retail optimization initiatives.

   Conducted interviews with Postal Service managers to understand their lessons
    learned as applicable to our objective.

   Reviewed Postal Service and PRC documents related to retail initiatives and posted
    on their public websites.

We conducted this review from October 2012 through March 2013 in accordance with
the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on February 13 and 15, 2013, and included their comments where
appropriate. We did not rely on computer-generated data to support the audit findings.




                                            11
    Lessons Learned from Retail Network                                            DR-MA-13-001
     Optimization Initiatives




    Prior Audit Coverage

                                                            Final
                                                           Report
           Report Title               Report Number          Date           Monetary Impact
Postal Service Retail Facilities       CI-MA-12-002       9/17/2012               None
Optimization Options
Report Results: The Postal Service’s plan was to preserve the Antler and Goldsboro POs
and help balance service with cost-saving opportunities by matching retail hours to workload.
In addition, it would maintain community identities, ZIP Codes, lobby access, and Saturday
retail service hours. However, there were customer inconveniences such as reduced
operating hours, traveling new distances to alternate retail locations, and access to alternate
retail options. The Postal Service planned to explore other options, such as expanding
partnership with local businesses and staggering the open and close times of surrounding
POs to mitigate the reduced retail service hours. We did not make any recommendations
because potential service impacts resulting from the POStPlan will be based on the Postal
Service’s final decision after obtaining community input. Management elected not to provide
written comments.

Postal Service-Operated Retail         EN-AR-12-002            12/1/2011            None
Facilities Discontinuance
Program
Report Results: The Postal Service could benefit from an integrated retail network
optimization strategy that included short- and long-term plans, milestones, and potential
saving goals. Criteria for selecting facilities for discontinuance studies was inconsistently
applied and the criteria used to select the offices could have benefited from an objective
integrated economic modeling. Management agreed with the findings and recommendations
and stated they will direct or set expectations for field management to achieve; however,
management added that setting specific goals and milestones impede the progress and the
process for the RAOI.

Retail and Delivery:               RARC-WP-11-009          9/22/2011             None
Decoupling Could Improve
Service and Lower Costs
Report Results: The Postal Service could benefit by partially decoupling its retail network
from its delivery network with potential cost, revenue, and customer service improvements.
We recognized the Postal Service has made positive steps in this direction. We suggested in
our study that management adopt a strategy and develop guidelines to decouple retail and
delivery operations in selected urban and suburban areas with the most potential value.




                                                 12
     Lessons Learned from Retail Network                                             DR-MA-13-001
      Optimization Initiatives




                                                              Final
                                                             Report
          Report Title             Report Number               Date       Monetary Impact
University Station, Eugene, OR      EN-AR-11-007            7/20/2011        $180,000
Consolidation
Report Results: The Postal Service followed applicable federal laws and policies to
discontinue University Station operations. However, management omitted certain operational
costs in the discontinuance proposal submitted to headquarters for approval. The omission
was due to inadequate coordination between local and district management. Management
agreed with the findings, recommendations, and monetary impact and stated that district
managers would review and certify discontinuance records before submitting them to
headquarters for approval. Management added that they have established a financial model
to be included in the discontinuance study as part of the closure process.

Web-Based Application for the          EN-AR-11-006(R)        7/7/2011              None
Discontinuance of Postal
Service-Operated Retail
Facilities
Report Results: The web-based program, CSDC, improved the Postal Service's retail
facility closing and consolidation process and complied with federal law and Postal Service
policies. In addition, the web-based program could reduce current cycle time, improve the
standardization and tracking of retail facility closures and consolidations, and provide
management greater visibility over discontinuance activities enterprise-wide. We did not
make any recommendations because we had initiated a review of the Postal
Service-operated retail facilities discontinuance program.

Barriers to Retail Network              RARC-WP-11-005           6/9/2011             None
Optimization
Report Results: The Postal Service needed to address the adverse impact of statutory,
regulatory, political, and institutional barriers to optimize the retail network. However,
mitigating these barriers may take time and is not entirely within Postal Service control. In the
interim, the Postal Service should focus on the institutional barriers that it can control. We did
not make any suggestions.




                                                  13
     Lessons Learned from Retail Network                                             DR-MA-13-001
      Optimization Initiatives




                                                               Final
                                                              Report
           Report Title                   Report Number         Date          Monetary Impact
Stations and Branches                      EN-AR-10-005      8/17/2010            $2,773,043
Optimization and Consolidation
Initiative
Report Results: The SBOC initiative was a viable option for the Postal Service to reduce
costs in the retail network, but opportunities existed to improve the process. The Postal
Service could have enhanced the planning and management of the initiative by improving
communication and coordination with stakeholders and developing accurate and reliable
data on its facilities. In addition, the Postal Service needed to raise stakeholders’ confidence.
Management agreed with the findings, recommendations, and monetary impact and initiated
actions to address our recommendations and incorporated Lean Six Sigma results to
improve the closure process.


Analyzing the Postal Service’s        RARC-WP-10-004        6/14/2010             None
Retail Network
Using an Objective Modeling
Approach
Report Results: The Postal Service could have responded to stakeholder concerns and
optimize its retail network by adopting a thorough, transparent, and objective approach to
retail modernization. Modernization should not have been thought of as solely a cost-saving
response to the Postal Service’s financial problems. Instead, it should have been seen as a
way to meet demand more efficiently and equitably in a way that cuts costs, encourage
constant re-evaluation and improvement, and align the Postal Service’s retail network to the
way people live now. We did not make any suggestions.




                                                  14
       Lessons Learned from Retail Network                                       DR-MA-13-001
        Optimization Initiatives




         Appendix B: Analysis of the Retail Access Optimization InitiativeRetail Facilities
                                          Composition

                                                              Number of       Percentage
                          RAOI Criteria                        Facilities     of Facilities
 Group 1: Pos
   Less than $27,500 in annual revenue.
   Less than 2 hours of workload daily.                         2,825            78%
 Group 2: Stations and Branches
   Less than $600,000 in annual revenue.
   Five or more access points within 2 miles.                     384            10%
 Group 3: Retail Annexes
   Less than $1 million in annual revenue.
   Five or more access points within 1/2 of a mile.               178            5%
 Group 4: 248 POs and 17 Stations and Branches
   No headquarters-defined criteria (discontinuance
    studies started under the old Handbook
                                                                   265            7%
    PO-101policy).

 Total                                                           3,652           100%
Source: PRC Docket Number 2011-1, RAOI, 2011.




                                                 15
Lessons Learned from Retail Network                                                              DR-MA-13-001
 Optimization Initiatives


                 Appendix C: Galesville Post Office Community Meeting




   Source: OIG photo taken on October 25, 2012.




   Source: OIG photo taken on October 25, 2012, of the manager of Post Office Operations, addressing Galesville
   PO customers about the proposed operating hour changes under the POStPlan initiative.




                                                      16
Lessons Learned from Retail Network                                                                DR-MA-13-001
 Optimization Initiatives




                    Appendix D: Galesville Post Office Survey Results




        Source: Postal Service prepared and distributed Galesville PO survey results to customers at the
                              October 25, 2012, POST Plan community meeting.




                                                      17
Lessons Learned from Retail Network                           DR-MA-13-001
 Optimization Initiatives



                          Appendix E: Management's Comments




                                         18
Lessons Learned from Retail Network        DR-MA-13-001
 Optimization Initiatives




                                      19
